D
E                                                            OFFICE OF WORKERS'
D
I                                                            COMPENSATION PROGRAMS
S
C
U
S
S
I              Office of Inspector General—Office of Audit
O
N

D
R
A
F
T




                                                             CONTROLS OVER TRANSPORTATION COST
                                                             REIMBURSEMENTS TO FECA CLAIMANTS NEED
                                                             STRENGTHENING




                                                                               Date Issued:   September 28, 2012
02-A12-345-67-890                                                           Report Number:      03-12-003-04-431
U.S. Department of Labor                                      September 2012
Office of Inspector General
                                                              CONTROLS OVER TRANSPORTATION COST
Office of Audit
                                                              REIMBURSEMENTS TO FECA CLAIMANTS
                                                              NEED STRENGTHENING

BRIEFLY…
Highlights of Report Number 03-12-003-04-431, issued          WHAT OIG FOUND
to the Acting Director, Office of Workers’ Compensation
Programs.                                                     OWCP did not have adequate internal controls to
                                                              prevent unreasonable and unallowable transportation
WHY READ THE REPORT                                           cost reimbursements to FECA claimants. Our testing of
                                                              91 randomly selected claims found 6 percent requiring
The Federal Employees’ Compensation Act (FECA)                OWCP authorization were paid without any review; and
authorized a disability compensation program                  46 percent requiring receipts were paid without the
administered by the Department of Labor’s (DOL) Office        claimant submitting them. Review of 9 claimants, who
of Workers' Compensation Programs (OWCP). FECA                each received more than $35,000 in transportation
provides several types of benefits, including                 reimbursements disclosed patterns of abuse, including
compensation for wage loss, schedule awards, medical          overstated mileage and multiple trips on the same day,
and related benefits, and vocational rehabilitation           as well as no OWCP authorization prior to making
services to Federal civilian employees for conditions         payments. Our review of 22 single transportation claims
resulting from injuries sustained in the performance of       that were more than $500 found problems in 9 of the
duty.                                                         claims, such as bill-processing errors and inflated
                                                              mileage, which resulted in $3,771 in overpayments.
FECA medical benefits include reimbursements to
claimants for transportation costs they incur to obtain       These conditions occurred because OWCP did not
reasonable and necessary medical services. FECA               comply with its policies and procedures for reviewing
regulations state that claimants must submit to OWCP          and authorizing transportation claims. Furthermore,
for prior authorization, a written request with information   these policies and procedures did not comply with
describing the circumstances and necessity of the             FECA regulations, which required authorization for
travel. In addition, OWCP requires that claimants             round trips of more than the 100 miles. In addition,
submit receipts for non-mileage travel exceeding $75          OWCP did not require claims examiners to document
before the agency will pay the claim.                         how they determined the reasonableness and accuracy
                                                              of mileage that claimants charged for medically-related
                                                              trips, and the agency did not have controls in place to
WHY OIG CONDUCTED THE AUDIT                                   identify and investigate patterns of potential travel fraud
                                                              and abuse by high-dollar claimants.
We conducted an audit of FECA transportation costs to
answer the following question:
                                                              WHAT OIG RECOMMENDED
    Does OWCP have adequate internal controls to
    prevent unreasonable and unallowable                      We recommended the OWCP Acting Director
    transportation cost reimbursements to FECA                strengthen controls to reduce the risk of improper
    claimants?                                                overpayments and abuse of FECA transportation costs,
                                                              and recover $3,771 in improper reimbursements.

READ THE FULL REPORT                                          Overall, OWCP agreed with the report findings and
To view the report, including the scope, methodology,         recommendations. OWCP stated that some of the
and full agency response, go to:                              report recommendations can be readily addressed
http://www.oig.dol.gov/public/reports/oa/2012/03-12-          while others will require additional review.
003-04-431.pdf.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                      Controls Over Claimant Transportation Costs
                                     Report No. 03-12-003-04-431
                                                               U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 


Results In Brief .............................................................................................................. 2
 


Objective — Does OWCP have adequate internal controls to prevent 

unreasonable and unallowable transportation cost reimbursements to FECA 

claimants? ..................................................................................................................... 3
 

          Controls over transportation cost reimbursements to FECA claimants need 

            to be improved to prevent abuse and fraud..................................................... 3
 


          Finding 1 — OWCP did not comply with its policies and procedures for 

             reviewing and authorizing transportation claims and its controls were 

             inadequate. ..................................................................................................... 3
 

          Finding 2— FECA claimants with large amounts of transportation 

             payments commited abuse and potential fraud, and large single 

             reimbursements were improperly paid. ........................................................... 5
 


Recommendations ........................................................................................................ 8
 


Appendices 
          Appendix A Background ..................................................................................... 11
 

          Appendix B Objective, Scope, Methodology, and Criteria .................................. 13
 

          Appendix C Acronyms and Abbreviations .......................................................... 17
 

          Appendix D OWCP Response to Draft Report ................................................... 19
 

          Appendix E Acknowledgements ......................................................................... 21
 





                                                                           Controls Over Claimant Transportation Costs
                                                                                          Report No. 03-12-003-04-431
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                      Controls Over Claimant Transportation Costs
                                     Report No. 03-12-003-04-431
                                                        U.S. Deparrtment of Lab
                                                                              bor – Office off Inspector Ge
                                                                                                          eneral



U.S. De
      epartmentt of Laborr                            Office of Inspecctor General
                                                      Washington, D.C  C. 20210




Septemb
      ber 28, 201
                12

                                 Assis
                                     stant Inspe
                                               ector Gene
                                                        eral’s Repo
                                                                  ort



Mr. Garyy A. Steinbeerg
Acting Director
Office off Workers’ Compensation Progra
                                      ams
U.S. Department off Labor
200 Con nstitution Av
                    venue, NW
                            W
Washing gton, D.C. 20210

The Fed deral Emplooyees’ Com  mpensation Act
                                            A (FECA) authorized     d a disabilitty
compensation prog  gram admin   nistered by the Departm  ment of Labbor’s (DOL) Office of
Workers s' Compens sation Programs (OWC     CP). FECA provides several type    es of benefits,
including
        g compensation for wa   age loss, scchedule aw wards, mediical and rela  ated benefiits,
and vocational reha abilitation services to federal civillian employyees for connditions
resulting
        g from injuries sustaine ed in the pe
                                            erformance e of duty. FEECA also provides for the
payment of compen   nsation to survivors off an employyee whose death resulted from a
work-related injury..

FECA medical benefits include reimburse       ements to c laimants fo or transporttation costss
they incuurred to obtain reason  nable and necessary m edical servvices, appliiances, or
suppliess. FECA reg  gulations exxplain that to determin ne a reason nable distannce to trave
                                                                                            el,
OWCP will conside    er the availa
                                 ability of services, the claimant’s condition, and the me  eans
of transpportation. FECA regula   ations also provide thaat a round-ttrip distance of up to 100
miles is considered  d reasonablle; howeverr, the shorte  est travel ro
                                                                      oute shouldd be taken.
Claiman nts can alsoo be reimbu  ursed for coosts incurredd using taxxis or specia
                                                                                 al conveyan  nce.
FECA re egulations state that claimants must submit to OWCP for prior autthorization a
written request with h informatioon describinng the circuumstances and necesssity of the
travel. OWCP’s currrent policie  es and proc cedures req quire claima ants to requ
                                                                                 uest
authorizzation for trips totaling more than 200 miles in one day, and to sub     bmit receiptts for
non-mileeage travel exceeding $75 before      e the agenccy will pay the claim.

OWCP uses a conttractor, Affiliated Computer Serviices (ACS),, to processs and pay all
                    e FECA pro
medical bills for the        ogram. For fiscal yearss (FY) 20100 and 2011,, medical
payments made forr FECA claimants tota aled more th han $900 million annu ually,
approxim
       mately $13 million of which represented med  dical transp          osts.1
                                                               portation co



1
    Source: OWCP Medicall Bill Pay data from July 1, 20
                                                      009, through Ju
                                                                    une 30, 2011

                                                                     C ontrols Overr Claimant Tra
                                                                                                ansportation Costs
                                                          1                           Report No. 03-12-003-04-431
                                                      U.S. Department of Labor – Office of Inspector General



Over the past several years, the Office of Inspector General (OIG) Office of Labor
Racketeering and Fraud Investigations (OLRFI) has found FECA transportation claim
fraud whereby claimants submitted travel vouchers for medical visits that never
occurred, and overstated travel mileage for trips to pharmacies and medically-related
appointments.

We conducted an audit of FECA transportation costs to answer the following question:

        Does OWCP have adequate internal controls to prevent unreasonable and
        unallowable transportation cost reimbursements to FECA claimants?

From a universe of 2,349 transportation claims totaling $332,0412 for the period
November 1, 2011, to March 31, 2012, we tested a random sample of 91 claims totaling
$12,053 to determine if OWCP authorized trips of more than 200 miles and obtained
receipts for transportation costs of more than $75. We selected our sample from the
time period because OWCP revised its controls in late October 2011.

We also performed two additional tests. We separately reviewed a judgmental sample
of reimbursements to 9 claimants who each received more than $35,000 in
transportation payments for the period July 1, 2009, through June 30, 2011.
Additionally, for the same time period, we tested all single transportation claims paid
that were more than $500.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS IN BRIEF

OWCP did not have adequate internal controls to prevent unreasonable and
unallowable transportation cost reimbursements to FECA claimants. Our testing of 91
claims found 3 of 52 claims requiring OWCP authorization were paid without any
review; and 18 of the 39 claims requiring receipts were paid without the claimant
submitting them. Our review of 9 claimants who each received more than $35,000 in
transportation reimbursements disclosed patterns of abuse including overstated mileage
and multiple trips on the same day, as well as no OWCP authorization prior to making
payments. We referred these 9 claimants for OLRFI investigation. Our review of 22
single transportation claims that were more than $500 found problems in 9 of these

2
 This was from a universe of claims for reimbursements to FECA claimants for mileage over 200 miles and costs
exceeding $75.

                                                                Controls Over Claimant Transportation Costs
                                                       2                       Report No. 03-12-003-04-431
                                           U.S. Department of Labor – Office of Inspector General



claims, such as bill-processing errors and inflated mileage, resulting in $3,771 in
overpayments.

OWCP did not comply with its policies and procedures for reviewing and authorizing
transportation claims. Furthermore, these policies and procedures did not comply with
FECA regulations, which required authorization for round trips of more than the 100
miles. In addition, OWCP did not require claims examiners to document how they
determined the reasonableness and accuracy of mileage that claimants charged for
medically-related trips, and the agency did not have controls in place to identify and
investigate patterns of potential travel fraud and abuse by high-dollar claimants.

Unless controls are improved, transportation cost reimbursements are at risk for
improper payments.

We recommended that the OWCP Acting Director strengthen controls to reduce the risk
of improper overpayments and abuse of FECA transportation costs and recover $3,771
in improper reimbursements.

OWCP generally agreed with the report findings and recommendations. OWCP stated
that some of the report recommendations can be readily addressed while others will
require additional review. The Acting Administrator’s entire response is contained in
Appendix D.


RESULTS AND FINDINGS

Objective — Does OWCP have adequate internal controls to prevent
            unreasonable and unallowable transportation cost reimbursements
            to FECA claimants?

      Controls over transportation cost reimbursements to FECA claimants need to be
      improved to prevent abuse and fraud.

Finding 1 — OWCP did not comply with its policies and procedures for reviewing
            and authorizing transportation claims and its controls were
            inadequate.

FECA regulations provided that claimants be reimbursed for mileage and non-mileage
transportation costs to obtain medical treatment. OWCP policies and procedures
required that, before payment, trips more than 200 miles be authorized by a claims
examiner and non-mileage costs more than $75 be supported by receipts from the
claimant. We tested 91 randomly selected claims and found 3 of 52 claims requiring
OWCP authorization prior to reimbursement were paid without any review; and 18 of 39
claims requiring receipts were paid without the claimant submitting them. OWCP’s
policies and procedures were inadequate because we found in instances in which the



                                                    Controls Over Claimant Transportation Costs
                                             3                     Report No. 03-12-003-04-431
                                          U.S. Department of Labor – Office of Inspector General



claimant overstated their mileage and OWCP authorized payment, and the more than
200 mile threshold requiring authorization did not comply with FECA regulations.

These conditions occurred because OWCP did not monitor the medical bill payment
process for transportation cost reimbursements to ensure established controls were
designed and operating properly. Unless OWCP improves its controls, transportation
cost reimbursements are at risk for abuse and fraud.

Title 20, Code of Federal Regulations (CFR), Part 10, dated June 28, 2011, provides
the following requirements for paying transportation costs:
      Part 10.315 – Will OWCP pay for transportation to obtain medical
      treatment?
      (a) The employee is entitled to reimbursement of reasonable and
      necessary expenses, including transportation needed to obtain authorized
      medical services, appliances or supplies. To determine a reasonable
      distance to travel, OWCP will consider the availability of services, the
      employee's condition, and the means of transportation. Generally, a round
      trip distance of up to 100 miles is considered a reasonable distance to
      travel. Travel should be undertaken by the shortest route, and if practical,
      by public conveyance. If the medical evidence shows that the employee is
      unable to use these means of transportation, OWCP may authorize travel
      by taxi or special conveyance.
      (b) For non-emergency medical treatment, if round trip travel of more than
      100 miles is contemplated, or air transportation or overnight
      accommodations will be needed, the employee must submit a written
      request to OWCP for prior authorization with information describing the
      circumstances and necessity for such travel expenses. OWCP will
      approve the request if it determines that the travel expenses are
      reasonable and necessary, and are incident to obtaining authorized
      medical services, appliances or supplies. Requests for travel expenses
      that are often approved include those resulting from referrals to a
      specialist outside the residential area for further medical treatment, and
      that involving air transportation of an employee who lives in a remote
      geographical area with limited local medical services.
OWCP required claimants to use OWCP-957 (travel voucher) to request reimbursement
for all medical travel cost, and to list each trip separately on the travel voucher along
with the name and address of the location visited. FECA claimants can submit up to
three trips on a travel voucher.

OWCP officials explained that reimbursement requests for travel exceeding 200 miles
per day required ACS to obtain claims examiner authorization before paying the claims.
This requirement is reflected in the Business Requirements section of the current ACS
contract.


                                                   Controls Over Claimant Transportation Costs
                                            4                     Report No. 03-12-003-04-431
                                          U.S. Department of Labor – Office of Inspector General




OWCP policies and procedures required authorization for travel expected to exceed 200
miles per day. For non-mileage expense such as tolls, parking, and taxi, OWCP
required authorizations and receipts for each charge exceeding $75. We noted that
OWCP’s policies and procedure did not meet the CFR reasonableness threshold of 100
miles per trip. According to 20 CFR Part 10.315(b), if round trip travel of more than 100
miles is contemplated, the employee must submit a written request to OWCP.

Trips over 200 miles per day were paid without proper authorization and there were
instances of overstated mileage.
We tested a random sample of 52 claims in which FECA claimants requested
reimbursement for trips that were more than 200 miles and found ACS paid 3
(6 percent) without the required authorization from the OWCP claims examiners.
However, this authorization process did not ensure mileage was reasonable. We
reviewed 18 of the 52 tested claims and found 11 (61 percent) in which the claimant
overstated the mileage. Based on our statistical sample results, we are 95 percent
confident ACS paid between $18,886 and $35,722 for mileage transportation costs in
our universe of $306,655 without the required authorization.
Transportation claims for non-mileage expenses exceeding $75 were paid without
required receipts.
We tested a random sample of 39 claims in which FECA claimants requested
reimbursement for non-mileage costs exceeding $75 and found ACS paid 18
(46 percent) without the required receipts. Based on our statistical sample results, we
are 95 percent confident ACS paid between $6,461and $12,483 for non-mileage
transportation costs in our universe of $25,386 without the required receipts.

These conditions occurred because ACS did not perform the required edit checks to
identify claims for mileage exceeding 200 miles/day, notify the claims examiners to
determine if travel was authorized, and require receipts for expenses exceeding $75
before reimbursing claimants. Regardless, even when the claims examiners had
authorized payment, OWCP policies and procedures did not require them to document
the basis for their determination that the trips were necessary and the mileage was
reasonable for the destination.

Finding 2— FECA claimants with large amounts of transportation payments
           commited abuse and potential fraud, and large single
           reimbursements were improperly paid.

Our review of FECA claimants who received the largest transportation reimbursements
over a 2-year period and review of single reimbursements over the same period found
abuse and potential fraud and overpayments. We tested a judgmental sample of travel
vouchers submitted by 9 claimants who each were reimbursed more than $35,000 in
transportation costs over a 2-year period and found the claimants overstated their
mileage and claimed travel to locations that were not a reasonable distance from their

                                                   Controls Over Claimant Transportation Costs
                                            5                     Report No. 03-12-003-04-431
                                                      U.S. Department of Labor – Office of Inspector General



residence. We also found no documentation to support that OWCP had authorized the
payments.

We also reviewed all 22 single transportation cost reimbursements exceeding $500 that
totaled $20,421 and found ACS committed processing errors and claimants overstated
their mileage that resulted in overpayments totaling $3,771.

These conditions occurred because OWCP did not have controls in place to monitor
claimants who were reimbursed a large amount in transportation costs to identify
patterns of potential abuse, fraud, and improper payments. As result, abuse and
potential fraud by FECA claimants who received a large amount of transportation cost
reimbursement of $5,000 and more and large improper payments could go undetected.

General Accountability Office (GAO) standards for internal controls provide that one of
the objectives of controls is to serve as the first line of defense in safeguarding assets
and preventing and detecting errors and fraud. OWCP’s Procedure Manual, Part 5,
Benefit Payments, Chapter 5-0101, Security of the Fiscal Operations, describes the
process in which Federal Employee Compensation System Surveillance Reports are
produced and provided to the District offices on a quarterly basis to assist in monitoring
case payments and detecting unusual provider activity.

FECA claimants who received more than $35,000 in travel costs reimbursements over a
2-year period committed abuse and potential fraud.

For the 2-year period, July 1, 2009, through June 30, 2011, we selected for review the
13 FECA claimants who received the highest amount of annual reimbursements, but
subsequently excluded 4 claimants who were under current investigation. For each of
the 9 claimants, we analyzed travel for 9 months using OWCP’s Agency Query System
(AQS) which provides information on the claims submitted and reimbursements paid for
the service dates. We then judgmentally selected 123 travel vouchers consisting of 362
trips with reimbursements totaling $40,025. Our analysis showed the claimants
committed abuse and potential fraud such as overstating their mileage, not selecting
locations a reasonable distance from their residence and submitting multiple vouchers
for trips on the same day. The following provides details:

Claimants overstated their mileage.
We determined claimants inflated the mileage submitted on their travel vouchers for 316
of the 362 trips we reviewed (87 percent), resulting in $10,761 in excessive
reimbursements.3 We identified an additional $2,433 in excess reimbursement for tolls
and parking associated with these trips.




3
 We used internet searches to calculate the miles between the claimant’s residence and the location address shown
on the voucher and compared it to the number of miles claimed.

                                                                 Controls Over Claimant Transportation Costs
                                                        6                       Report No. 03-12-003-04-431
                                          U.S. Department of Labor – Office of Inspector General



Claimants claimed travel to locations that were not a reasonable distance from their
residence.
We found claimants submitted claims for travel to locations that were not a reasonable
distance from their residence for 200 of the 362 trips we reviewed (55 percent), resulting
in $18,194 in excessive reimbursements. For example, one claimant received
reimbursement for 30 trips that were at least 420 round-trip miles per visit to various
physical therapists, which is excessive even when allowing for one’s personal
preference regarding physical therapists. Another claimant submitted travel vouchers for
24 trips of at least 195 round-trip miles to various chain pharmacies. Our research
showed a pharmacy was located only 13 miles round-trip from the claimant’s residence.

Claimants submitted separate vouchers for multiple trips on the same day.
We found claimants sought reimbursement for multiple trips for the same day on
different vouchers. For example, our analysis of travel vouchers for one claimant during
December 2011 showed that for 21 days, they made 2 to 3 trips a day which totaled
from 210 to 410 miles. For 4 consecutive days in November 2011 the claimant made 4
trips a day for over 325 miles per day. We did not quantify the number of incidents
related to this condition because the trips were included in the previously mentioned
examples.
We found examples of abuse and potential fraud such as travel claimed for every day of
one month, including weekends and holidays such as Thanksgiving and Christmas.
We referred all 9 cases to OIG’s OLRFI for investigation.

ACS overpaid single-trip travel claims.
We found ACS overpaid claimants for 9 of the 22 single-trip travel claims over $500 that
we reviewed for program years (PY) 2010 and 2011, resulting in $3,771 in
overpayments. The following are examples of the overpayments ACS made:

          		 A claimant received $500; however, based on the mileage shown on the
              travel voucher, the amount should have been $50.31.

          		 A claimant received $953; however; based on the mileage shown on the
              travel voucher, the amount should have been $9.65.

          		 A claimant received $1,063; however, based on the mileage shown on the
              travel voucher, the amount should have been $2.50.
The above conditions occurred because OWCP did not perform analytical review of
claimants with a high volume of travel claims and reimbursements to identify the
potential abuse and fraud discussed above, nor did OWCP perform any review of high
dollar single claims for potential over payments. OWCP’s process to monitor unusual
claims activity did not include travel cost reimbursement to claimants.



                                                   Controls Over Claimant Transportation Costs
                                            7                     Report No. 03-12-003-04-431
                                          U.S. Department of Labor – Office of Inspector General




RECOMMENDATIONS

We recommend that the Acting Director of the Office of Workers’ Compensation
Programs:

1. Implement a monitoring procedure over the contractor to ensure it is obtaining
   claims examiner authorizations and receipts for non-mileage travel costs, as
   appropriate, prior to making payments.

2. Implement procedures requiring claims examiners to determine whether mileage
   requiring authorization is reasonable and to document the basis for their
   determination.

3. Revise the threshold requiring authorization for mileage to obtain medical services
   from 200 miles to 100 miles in accordance with FECA regulations.

4. Recover the $3,771 identified as overpayments as a result of ACS processing
   errors.

5. Develop and implement a surveillance report process to identify claimants who
   receive large annual transportation cost reimbursements to determine if there is
   potential abuse and/or fraud and single travel cost reimbursement payment over
   $500 to determine if any were improperly paid.


We appreciate the cooperation and courtesies that OWCP personnel extended to the
OIG during this audit. OIG personnel who made major contributions to this report are
listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                   Controls Over Claimant Transportation Costs
                                           8                      Report No. 03-12-003-04-431
               U.S. Department of Labor – Office of Inspector General




Appendices 





                        Controls Over Claimant Transportation Costs
                9                      Report No. 03-12-003-04-431
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                     Controls Over Claimant Transportation Costs
             10                     Report No. 03-12-003-04-431
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix A
Background

Within DOL, OWCP is responsible for administering FECA. Within OWCP, the Division
of Federal Employees’ Compensation (DFEC) adjudicates new claims for benefits and
manages ongoing cases. FECA provides several types of benefits, including
compensation for wage loss, schedule awards, medical and related benefits, and
vocational rehabilitation services to Federal civilian employees for conditions resulting
from injuries sustained in the performance of duty. The FECA also provides for the
payment of compensation to survivors of an employee whose death resulted from a
work-related injury. Benefits are paid from the Employees’ Compensation Fund which is
principally funded through chargeback’s to the Federal agencies that employ the injured
worker. Therefore, the FECA program affects the budgets of all Federal agencies. This
reimbursement occurs once each year through the chargeback process.

FECA medical benefits include reimbursements to claimants for transportation costs
they incurred to obtain reasonable and necessary medical services, appliances, or
supplies. FECA claimants are required to use OWCP Form 957, Medical Travel Refund
Request to receive reimbursement for these costs.

OWCP uses a contractor, ACS, to process and pay all claimants medical and
transportation bills for the FECA program. For FYs 2010 and 2011, medical payments
made for FECA claimants totaled more than $900 million annually. For the same time
period, OWCP transportation reimbursements totaled $10.5 and $14.9 million
respectively (approximately $13 million averaged for PYs 2010 and 2011.

We initiated this audit because of recent OLRFI investigations that found FECA
transportation claim fraud whereby claimants submitted travel vouchers for medical
visits that never occurred and overstated travel mileage for trips to pharmacies and
medically-related appointments.




                                                   Controls Over Claimant Transportation Costs
                                           11                     Report No. 03-12-003-04-431
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                     Controls Over Claimant Transportation Costs
             12                     Report No. 03-12-003-04-431
                                                          U.S. Department of Labor – Office of Inspector General



                                                                                                    Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The objective of this audit was to answer the following question:

           Does OWCP have adequate internal controls to prevent unreasonable and
           unallowable transportation cost reimbursements to FECA claimants?

Scope

We selected a random sample of 91 transportation payments totaling $12,053 from a
universe of 2,349 payments for reimbursements to FECA claimants for mileage more
than 200 and transportation costs more than $75. The 2,349 payments were for trips
that occurred from November 1, 2011, to March 31, 2012. These trips were paid during
the period January 1, 2012, to March 31, 2012, and totaled $332,041.4 We selected
payments for trips that occurred after October 28, 2011, because this was the date that
OWCP implemented revised controls.

In a separate test, we reviewed a judgmental sample of 9 claimants who each received
more than $35,000 in transportation payments for the 2-year period July 1, 2009,
through June 30, 2011. We selected the 9 claimants from a population of 295 who
received FECA reimbursements of $5,000 and greater in during the 2-year period July
1, 2009, through June 30, 2011. We considered these claimants to be high risk based
on our understanding of recent OLRFI investigations of FECA transportation claims by
OIG’s Office of Labor Racketeering and Fraud Investigations. For these 9 claimants, we
analyzed a judgmental sample of travel vouchers covering the period July 1, 2009
through March 31, 2012. Specifically, we analyzed nine months of transportation activity
for October 2008, April 2009, August 2009, May 2010, December 2010, June 2011,
November 2011, December 2011 and January 2012. Together, the 9 claimants received
$174,464 for the months reviewed.

Finally, we tested all single transportation claims for mileage – totaling $20,241 – that
exceeded $500 for the same 2-year period July 1, 2009, through June 30, 2011.

We conducted the fieldwork between December 2011 and July 2012 at OWCP’s
National Office in Washington, D.C. and at the FECA District Office, in Philadelphia, PA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence


4
    All FECA transportation costs for the period January 1 to March 31, 2012, totaled $3,857,829.

                                                                     Controls Over Claimant Transportation Costs
                                                           13                       Report No. 03-12-003-04-431
                                           U.S. Department of Labor – Office of Inspector General



obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
Methodology

To assess OWCP’s internal controls over transportation cost reimbursements to FECA
claimants, we interviewed key OWCP staff, and reviewed applicable FECA
requirements, including regulations, DFEC’s Procedure Manual, and the Business
Requirements section of OWCP’s contract with ACS. We performed a walkthrough of
the process for paying transportation cost reimbursements to FECA claimants.
A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing OWCP’s policies and procedures related to
transportation cost reimbursements to FECA claimants. We confirmed our
understanding of these controls and procedures through interviews and documentation
review and analysis. We evaluated internal controls used by OWCP for reasonable
assurance that reimbursing FECA claimants for medically related transportation costs
was done according to federal and OWCP requirements. Our consideration of OWCP’s
internal controls for reimbursing FECA claimants for medically related transportation
costs would not necessarily disclose all matters that might be reportable conditions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.
To determine if OWCP’s internal controls over transportation cost reimbursements to
FECA claimants were operating and effective, we tested 91 trips consisting of a random
sample of 52 payments for trips that were 200 miles and greater and a random sample
of 39 payments made for non-mileage costs that were $75 and greater. For the
payments made for trips that were 200 miles and greater, we searched OWCP’s case
management system —integrated Federal Employee Compensation System (iFECS) —
to determine if there were authorizations by the claims examiners approving the travel.
We also determined whether or not the payment was made after the authorization by
comparing the approval date for the trip to date of service when the trip was made. For
the payments made related to non-mileage costs that were $75 or greater, we
requested OWCP provide a copy of the travel voucher and receipts to support the
amount claimed. To determine the effectiveness of the internal controls over mileage,
we reviewed travel vouchers for 23 of the 52 sampled payments, of which 13 were
authorized by a claims examiner. We compared the mileage claimed to the mileage
between the locations shown on the travel voucher according to various internet search
sites. If the claims examiner authorized the trip and the claimant overstated the mileage,
this indicated the control was not effective.
Based on our statistical sample results, we used 95 percent confidence level. We used
the test results to project the monetary range in unauthorized POV mileage
reimbursements and travel expenses without required receipts.


                                                    Controls Over Claimant Transportation Costs
                                            14                     Report No. 03-12-003-04-431
                                           U.S. Department of Labor – Office of Inspector General



To evaluate internal controls over high-risk claimants, we used a threshold of $5,000 in
annual transportation cost reimbursements to individual FECA claimants. Using
OWCP’s FECA Medical Bill Pay data base for the period July 1, 2009 through
June 30, 2011, we identified 295 FECA claimants who were reimbursed $5,000 or more
annually, for a total of $4,098,012. This amount represents 16 percent of the total
amount reimbursed to all FECA claimants during the same period. We initially selected
for review the 13 FECA claimants who received the highest amount of reimbursements
for the period, but subsequently excluded 4 due to current OLRFI investigations. For the
remaining 9 claimants, we determined that together they received $583,323 for 10,259
trips within the period reviewed.



                           Travel Reimbursements Provided to
                          the 9 Claimants Over a 2 Year Period
                         Claimant            Amount Received
                         A                           $ 104,010
                         B                           $ 83,235
                         C                           $ 69,340
                         D                           $ 67,513
                         E                           $ 57,023
                         F                           $ 63,385
                         G                           $ 57,930
                         H                           $ 44,634
                         I                           $ 36,253
                         Total                       $ 583,323

To identify travel patterns of potential abuse, we analyzed nine months of transportation
activity and documented daily travel and the reimbursement of claimed expenses. The
reimbursements were primarily for mileage transportation expenses.
To test the accuracy of the mileage reimbursements, we selected a judgmental sample
of 123 travel vouchers that contained 362 individual trips. For each of the 362 trips we
verified that OWCP paid the claimant by reviewing payment history in AQS. We then
tested the mileage claimed, the reasonableness of travel (closest vendor), adherence to
regulation mileage guidelines, and other non-mileage travel cost reimbursements. Using
internet search sites, we obtained the highest miles possible between the locations
shown on the claimant’s travel voucher and allowed a 10 mile difference before
considering it an exception. We also used internet search sites to locate the common
medical provider closest to the claimants’ residence. However, we excluded doctor
visits in our analysis because it would be difficult to determine if it was reasonable for
the claimant to select a preferred doctor as compared to a pharmacy or medical
provider of physical therapy. We reviewed documentation in iFECS to determine the
extent of the claims examiner’s involvement as related to travel expense
reimbursements. We did not take exceptions to payments if there was sufficient
documentation to justify it.

                                                    Controls Over Claimant Transportation Costs
                                            15                     Report No. 03-12-003-04-431
                                        U.S. Department of Labor – Office of Inspector General



We relied on the computer-processed data contained in OWCP’s FECA Medical Bill Pay
database. We assessed the reliability of the data by: performing various tests of
required data elements, and interviewing OWCP officials knowledgeable of the data.
Based on these tests and assessments, we concluded the data was sufficiently reliable
to use in meeting the audit objective.
Criteria

20 CFR, Part 10, dated June 28, 2011

DFEC Procedure Manual Parts 3 and Part 5, effective March 31, 2012

GAO Standards for Internal Controls in the Federal Government, November 1999




                                                 Controls Over Claimant Transportation Costs
                                         16                     Report No. 03-12-003-04-431
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations

ACS                   Affiliated Computer Services, Inc.

AQS                   Agency Query System

CFR                   Code of Federal Regulations

DFEC                  Division of Federal Employees’ Compensation

DOL                   Department of Labor

FECA                  Federal Employees’ Compensation Act

FY                    Fiscal Year

GAO                   General Accountability Office

iFECS                 Integrated Federal Employee Compensation System

OIG                   Office of Inspector General

OLRFI                 Office of Labor Racketeering and Fraud Investigations

OWCP                  Office of Workers’ Compensation Programs

PY                    Program Year

Travel Voucher        OWCP Form 957




                                              Controls Over Claimant Transportation Costs
                                      17                     Report No. 03-12-003-04-431
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                     Controls Over Claimant Transportation Costs
             18                     Report No. 03-12-003-04-431
                                U.S. Deparrtment of Lab
                                                      bor – Office off Inspector Ge
                                                                                  eneral



                                                                        Append
                                                                             dix D
OWCP Response to Draft Re
                        eport




                                          C ontrols Overr Claimant Tra
                                                                     ansportation Costs
                                 19                        Report No. 03-12-003-04-431
U.S. Deparrtment of Lab
                      bor – Office off Inspector Ge
                                                  eneral




          C ontrols Overr Claimant Tra
                                     ansportation Costs


 20                        Report No. 03-12-003-04-431


                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix E
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Daniel Pompilii (Audit
Manager),Eric Rann, Lisa Larosa, Gloria Collazo-Scotland, Dave Halstead, and Ajit
Buttar.




                                                     Controls Over Claimant Transportation Costs
                                             21                     Report No. 03-12-003-04-431
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:     1-800-347-3756
         202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
  U.S. Department of Labor 

  200 Constitution Avenue, N.W. 

  Room S-5506 

  Washington, D.C. 20210 

